No. 20-255
In the

Supreme Court of the United States

_________
MAHANOY AREA SCHOOL DISTRICT,
Petitioner,
V.

B.L., A MINOR, BY AND THROUGH HER FATHER, LAWRENCE LEVY, AND HER MOTHER, BETTY LOU LEVY,
Respondents.
_________
On Writ of Certiorari to the United States Court of
Appeals for the Third Circuit
_________
BRIEF OF NATIONAL ASSOCIATION OF PUPIL
SERVICES ADMINISTRATORS, PENNSYLVANIA
ASSOCIATION OF PUPIL SERVICES ADMINISTRATORS AS AMICI CURIAE IN SUPPORT OF PETITIONER
_________

CHRISTOPHER B. GILBERT
Counsel of Record
STEPHANIE A. HAMM
THOMPSON & HORTON LLP
3200 Southwest Freeway, Suite 2000
Houston, Texas 77027
(713) 554-6744
cgilbert@thompsonhorton.com

I
TABLE OF CONTENTS
Page
I.

Interest of Amici Curiae..................................... 1

II.

Introduction and Summary of the Argument ... 3

III. Argument ............................................................ 3
A. Schools need to be able to discipline students for off-campus speech, particularly
online speech, that impacts the school
community, at least some of the time and
under some circumstances .......................... 5
B. In particular, schools need to be able to
address off-campus or online student
speech that targets other students ........... 22
C. Schools need some authority to address
student speech that, like here, targeted a
school activity or organization, and was
reasonably likely to cause disruption in
that activity or organization ..................... 26
IV. Conclusion ........................................................ 31

II
TABLE OF AUTHORITIES
Cases:
B.L. by and through Levy v. Mahanoy Area
Sch. Dist., 964 F.3d 170 (3rd Cir. 2020) ....... passim
Bell v. Itawamba County Sch. Bd.,
799 F.3d 379 (5th Cir. 2015) .......... 13-17, 20-23, 29
Bethel Sch. Dist. No. 403 v. Fraser,
478 U.S. 675 (1986) .................................. 14, 26-27
Boim v. Fulton Cnty. Sch. Dist.,
494 F.3d 978 (11th Cir. 2007) .............................. 22
C.R. v. Eugene Sch. Dist. 4J,
835 F.3d 1142 (9th Cir. 2016) ......................... 11-13
D.J.M. ex rel. D.M. v. Hannibal Pub. Sch.
Dist. No. 60, 647 F.3d 754 (8th Cir. 2011)..... 19, 22
Davis v. Monroe Cnty. Bd. of Educ.,
526 U.S. 629 (1999) ........................................... 6–7
Doe v. Taylor Indep. Sch. Dist.,
15 F.3d 443 (5th Cir. 1994) .................................... 7
Doninger v. Niehoff,
527 F.3d 41 (2nd Cir. 2008).................................. 21
Glowacki v. Howell Pub. Sch. Dist.,
2013 WL 3148272 (E.D. Mich. 2013)............. 23-25
Goss v. Lopez,
419 U.S. 565 (1975) ............................................. 20
J.S. ex rel. Snyder v. Blue Mountain Sch.
Dist., 650 F.3d 915, 926 (3rd Cir. 2011) .............. 22

III
Kowalski v. Berkeley County Schools,
652 F.3d 565 (4th Cir. 2011) .................. 7-10, 18-21
Longoria ex rel. M.L. v. San Benito Indep. Sch.
Dist., 942 F.3d 258 (5th Cir. 2019) ............... passim
Morse v. Frederick,
551 U.S. 393 (2007) ................................. 14, 15, 19
Porter v. Ascension Parish Sch. Bd.,
393 F.3d 608 (5th Cir. 2004) ................................ 21
S.J.W. v. Lee’s Summit R-7 Sch. Dist.,
696 F.3d 771 (8th Cir. 2012) .................. 8-11, 18-21
Tinker v. Des Moines Indep. Comm. Sch. Dist.,
393 U.S. 503 (1969) ...................................... passim
Wynar v. Douglas County Sch. Dist.,
728 F.3d 1062 (9th Cir. 2013) ................... 17-18, 21
Secondary Sources:
Emily Gold Waldman, A Post-Morse Framework for Students’ Potentially Hurtful Speech
(Religious and Otherwise), 37 J.L. & Educ.
463 (2008) ................................................................. 25
Other Sources:
ACLU-PA Statement on Mahanoy Area
School District’s Decision to Appeal Ruling in
B.L. (April 12, 2019) ................................................... 6
Adam Liptak, A Cheerleader’s Vulgar Message Prompts a First Amendment Showdown,
N.Y. Times (Dec. 28, 2020) ....................................... 20

1
I.
INTEREST OF AMICI CURIAE1
Amicus National Association of Pupil Services
Administrators (NAPSA) is the only national organization that focuses its efforts on the development of
administrators and programs designed to serve the
academic, social, emotional, and physical needs of all
students.
NAPSA is a national association of student services administrators with members across the United
States. NAPSA is committed to the cultivation of leadership, advocacy, and professional development in the
field of pupil services. The job of today’s pupil services
administrator requires a broad knowledge of many
fields within student services including special education, psychology, social work, and counseling.
Pupil services administrators must also have
the ability to effectively integrate these student support services within a school district’s instructional
program. Most education organizations are disciplinespecific in their approach to professional development,
service delivery, and advocacy. In contrast, NAPSA
members enjoy the unique benefit of being part of a
progressive and nationally recognized organization
that supports the implementation of a well-integrated
and multidisciplinary configuration of student support services.

1 All parties have consented to the filing of this amicus
brief. No counsel for a party authored the brief in whole or in
part. No party, counsel for a party, or any person other than
amici curiae and their counsel made a monetary contribution intended to fund the preparation or submission of this brief.

2
Amicus Pennsylvania Association of Pupil Services Administrators (PAPSA) is a statewide organization of pupil services administrators with nearly
350 members from among the 600 local educational
entities in the Commonwealth of Pennsylvania.
PAPSA members include central office administrators
with such titles as Director of Pupil Services, Supervisor of Special Education, Assistant Superintendent
for Student Services, as well as Superintendents, and
many variations that comprise the coordination of
programs in the areas of counseling, psychology, nursing, social work, attendance, special education, gifted
education, student assistance, and other related
fields.
Amici are concerned that the decision below
will hamper school administrators’ ability to address
serious student issues arising from off-campus, online
speech, such as cyberbullying and sexual harassment.
Schools must be able to discipline students for such
speech, when it impacts the school community, at
least some of the time and under some circumstances,
and the test set forth by this Court in Tinker v. Des
Moines Indep. Comm. Sch. Dist., 393 U.S. 503 (1969)
sets forth the basics for a workable rule.
Based on the foregoing, Amici submit that the
U.S. Court of Appeals for the Third Circuit (“Third
Circuit”) incorrectly found that the Mahanoy Area
School District violated the First Amendment rights
of B.L. Amici urge the Court to consider this case to
resolve issues of considerable interest and import to
the entire public education community.

3
II.
INTRODUCTION AND
SUMMARY OF THE ARGUMENT
Amici, NAPSA and PAPSA, file this brief in
support of the Mahanoy Area School District, because
they believe that the Third Circuit has created a rule
that will make it extremely hard, if not impossible, for
school administrators to address serious speech-related issues such as sexual harassment or cyberbullying, simply because the speech originates off-campus
or online. School administrators need to be able to
discipline students for off-campus speech that impacts
the school community and that targets other students.
Schools also need some authority to address student
speech that, like that of B.L., targeted a school activity
or organization, and was reasonably likely to cause
disruption in that activity or organization.
III.
ARGUMENT
“Bad facts make bad law.” B.L. by and through
Levy v. Mahanoy Area Sch. Dist., 964 F.3d 170, 187
(3rd Cir. 2020). While the lower court meant this as a
cautionary warning that what might seem appropriate in extreme cases should not create rules that overcompensate in more moderate situations, the opposite
is also true: courts addressing comparatively minor
student speech disputes should not establish sweeping rules that prejudice a school district’s ability to
handle a wide range of other serious speech-related
issues. Yet, in deciding that Mahanoy Area High

4
School cannot apply the well-established Tinker rule2
to a cheerleader who posted a picture of herself on
Snapchat with her middle finger raised, with the caption “Fuck school fuck softball fuck cheer fuck everything,” the Third Circuit has created an unnecessarily
broad rule that will make it extremely hard, if not impossible, for school administrators to address much
more serious issues like sexual harassment or cyberbullying, simply because the student chooses to
launch a “virtual” attack from the other side of the
schoolhouse gates. A blanket holding that “Tinker
does not apply to off-campus speech,” id. at 189—a
conclusion that Judge Ambro recognized below as
unique among circuit courts, see id. at 196 (Ambro, J.,
concurring in the judgment)—may protect students
like B.L. from perceived overreaching by school officials, but only at the very real cost of endangering
countless other students.
As organizations whose members frequently
are responsible for handling student discipline issues
and other student-related issues—including the everincreasing threat of cyberbullying and sexual harassment— NAPSA and PAPSA write to stress three
points to this Court:
1. Schools need to be able to discipline students
for off-campus speech, particularly online
speech, that impacts the school community, at
least some of the time and under some circumstances;

2 Tinker v. Des Moines Indep. Comm. Sch. Dist., 393 U.S.
503 (1969).

5
2. In particular, schools need to be able to address
off-campus or online student speech that targets other students; and
3. Schools need some authority to address student
speech that, like here, targeted a school activity
or organization, and was reasonably likely to
cause disruption in that activity or organization.
To meet these goals, school administrators desperately need a clearly-articulated standard to guide
them on when and under what circumstances they
may discipline students for off-campus and/or online
speech. NAPSA and PAPSA urge this Court to decline
to follow the traditional doctrine of avoiding difficult
constitutional questions in favor of simpler resolutions, which both the lower court here and the Fifth
Circuit in a very similar case (that will be discussed
below) recognized has deprived school officials of
much-needed guidance on these very issues. See B.L.,
964 F.3d at 185-86; Longoria ex rel. M.L. v. San Benito
Indep. Consol. Sch. Dist., 942 F.3d 258, 267 (5th Cir.
2019).
A.

Schools need to be able to discipline students for off-campus speech, particularly
online speech, that impacts the school
community, at least some of the time and
under some circumstances.

In a press release issued by the ACLU about
this case, B.L.’s father suggested that off-campus student speech should only be addressed by parents, not
schools:

6
As a parent, I know that sometimes kids
do foolish things. But when my daughter
is on her own time and out of school, it’s
my role as a parent to address her behavior. In this situation, I did that and felt
that the school overstepped its bounds.
We’re in this case because we don’t want
to see schools have the power to discipline students for what they do on their
own time. Leave that authority to parents.
See ACLU-PA Statement on Mahanoy Area School
District’s Decision to Appeal Ruling in B.L. (April 12,
2019), available at https://www.aclupa.org/en/pressreleases/aclu-pa-statement-mahanoy-area-school-districts-decision-appeal-ruling-bl. Frankly, many school
administrators would like nothing more than to agree
with B.L.’s father and rely on parents to handle these
types of issues. But, in this day and age, the sad truth
is that parents often do not discipline their children,
either because they do not believe that discipline is
warranted, do not fully know what their children are
doing (particularly online), or are not even present in
their children’s lives.
Also, a common problem facing school administrators is that there are often two sets of parents in
the mix: the parents of the accused student who, like
B.L.’s parents, want school officials to “stay out of it,”
and the parents of the victimized student(s), who are
demanding with equal fervor that the school “do something about it.” Given that the legal standard for
school and administrator liability in many situations
is “deliberate indifference”—see, e.g., Davis v. Monroe
Cnty. Bd. of Educ., 526 U.S. 629, 650 (1999) (Title IX

7
plaintiffs must show that “the district was deliberately indifferent to the harassment.”); Doe v. Taylor
Indep. Sch. Dist., 15 F.3d 443, 453 (5th Cir. 1994) (en
banc) (“A municipality, with its broad obligation to supervise all of its employees, is liable under § 1983 if it
supervises its employees in a manner that manifests
deliberate indifference to the constitutional rights of
citizens. We see no principled reason why an individual to whom the municipality has delegated responsibility to directly supervise the employee should not be
held liable under the same standard.”)—there is enormous pressure on schools to “do something.”
But under the lower court’s decision in this
case, schools will be forced to do nothing, even when
students are in dire need of help. The majority below
ruled that Tinker—which allows schools to discipline
students for speech that “materially and substantially
interfere[s] with the requirements of appropriate discipline in the operation of the school”—does not apply,
at all, to off-campus speech. B.L., 964 F.3d at 189. As
noted by Judge Ambro, the Third Circuit’s position
has been entirely rejected by all other circuits. Id. at
196 (Ambro, J., concurring in the judgment) (“[O]urs
is the first Circuit Court to hold that Tinker categorically does not apply to off-campus speech.”).
“Bad facts make bad law,” and it is easy in this
case to scoff at the need for the school to take any action against B.L., because it was “just cheerleading,”
and the student was only “blowing off steam.” But the
categorical rule adopted by the Third Circuit below
will prevent school officials from helping students who
have much more serious needs. Take, for example, the
sad case of Shay N. See Kowalski v. Berkeley County
Schools, 652 F.3d 565 (4th Cir. 2011). When Kara

8
Kowalksi was a senior, she created a MySpace page
called “S.A.S.H.,” which Kowalksi claimed stood for
“Students Against Sluts Herpes,” but which was
largely dedicated to ridiculing her fellow student Shay
(another male student involved with the website testified that the second “S” in “S.A.S.H.” actually stood
for Shay, and not for “Sluts”). Id. at 567. The male
student uploaded several pictures of Shay that were
captioned to suggest she had herpes, and Kowalksi responded favorably to at least one of the photos. A few
hours after the pictures were posted, Shay’s father
called the male student to complain, and he and
Kowalksi tried to delete the website, but were not entirely successful. Shay and her father went to school
the next morning to complain, and school officials suspended Kowalksi for ten days, later reduced to five,
and issued her a 90-day “social suspension,” which
prevented her from attending school events in which
she was not directly involved. She also was not allowed to crown the next “Queen of Charm” as the incumbent in that position, and she was kicked off the
cheerleading squad for the rest of the year. But under
the Third Circuit’s decision in this case, the school
would have been unable to help Shay and protect her
from being cyberbullied, even though the Fourth Circuit concluded that the plaintiff’s behavior was “not
the conduct and speech that our educational system is
required to tolerate….” Id. at 573.
Or what about the multiple students that twin
brothers decided to target in S.J.W. v. Lee’s Summit
R-7 School District, 696 F.3d 771 (8th Cir. 2012)? The
brothers created a website that contained a variety of
offensive and sexually explicit comments about female
classmates, whom they identified by name. There

9
were also several racist comments about a fight at the
high school that mocked black students. School officials testified that the website caused substantial disruption, as school officials fielded numerous phone
calls from the media and parents about bullying and
harassment, and teachers had difficulty managing
their classes because students wanted to talk about
the website.3 After the school determined that the
brothers were responsible for the website, they were
immediately suspended for ten days and then, after a
hearing, for 180 days (though they were allowed to enroll in another school in the district during their suspension). But again, under the lower court’s decision
here, the school would not have been able to address
the racist and harassing statements the two brothers
made about their fellow students, and the victims of
their harassment likely would have suffered further
torment.
Both the Fourth Circuit and the Eighth Circuit
recognized the difficulty of dealing with off-campus,
online speech by students, but they did not simply
wash their hands of the issue: they addressed it head
on. Kowalksi’s lawsuit did not really defend the substance of her speech, but focused on challenging the
school’s ability to punish a student for off-campus,
non-school related speech. The Fourth Circuit noted
that her argument “raises the metaphysical question
of where her speech occurred when she used the Internet as the medium.” Kowalski, 652 F.3d. at 573.
Although she “pushed her computer’s keys in her

3 At least two teachers testified that the day everyone
found out about the website was the most disrupted day of their
teaching careers. S.J.W., 696 F.3d at 774.

10
home,” the court noted that her target and audience
were all students, and concluded that Kowalksi
should have reasonably anticipated that the speech
would reach the school or impact the school environment. The court found that it was foreseeable that the
speech would reach the school “via computers,
smartphones, and other electronic devices, given that
most of the ‘S.A.S.H.’ group’s members and the target
of the group’s harassment were Musselman High
School students.” Id. at 574. And while the court cautioned that there was surely a limit as to how far
school officials could reach beyond the schoolhouse
gates, it was “fully satisfied that the nexus of
Kowalksi’s speech to Musselman High School’s pedagogical interests was sufficiently strong to justify the
action taken by school officials in carrying out their
role as the trustees of the student body’s well-being.”
Id. at 573.
In S.J.W., the Eighth Circuit rejected the brothers’ argument that they could not be disciplined for
speech occurring off campus, relying on cases like
Kowalski to hold that “Tinker applies to off-campus
student speech where it is reasonably foreseeable that
the speech will reach the school community and cause
a substantial disruption to the educational setting.”
S.J.W., 696 F.3d at 777. The district court found that
the website had “caused considerable disturbance and
disruption,” that the “greatest school wide problem”
was caused by the racist posts (the worst of which was
definitely authored by one of the twins), and that the
website “targeted” the high school. Id. at 775. The
Eighth Circuit had no issue finding that the school
had jurisdiction over the brothers’ speech, noting that
“the location from which the Wilsons spoke may be

11
less important than the District Court’s finding that
the posts were directed at Lee’s Summit North.” Id.
at 778. Because the lower court had found that the
website “caused considerable disturbance and disruption,” the Eighth Circuit also concluded that disciplining the brothers was permissible under Tinker.
Additionally, although unrelated to online
speech, the Ninth Circuit addressed off-campus
speech in C.R. v. Eugene School District 4J, 835 F.3d
1142 (9th Cir. 2016), and similarly held that Tinker applies “if the speech might reasonably lead school authorities to forecast substantial disruption of or material interference with school activities, or, alternatively, if the speech collides with the rights of other
students to be secure and to be let alone.” C.R., 835
F.3d at 1152. In C.R., a seventh-grade student was
disciplined for off-campus, sexually harassing speech
directed towards two disabled sixth-graders (one boy,
one girl). C.R., along with a few other seventh-grade
students, followed the disabled students home from
school over the course of several days, and engaged in
teasing behavior that quickly escalated to vulgar and
sexually harassing statements and jokes. Id. at 1146.
Among other things, the older boys asked the younger
students if they watched pornography, gave them vulgar fake names and insisted that they repeat them,
and made suggestive jokes about oral sex. Id. One
day, an instructional aide rode past the group of students on her bike, and noticed that one of the sixthgrade students looked “a little scared.” Id. She told
the older boys to leave, walked the younger students
home, and talked to them about what was happening.
Id. After interviewing all of the students involved,
school administrators determined that the incident

12
fell within the school district’s definition of harassment, and suspended C.R. for two days. C.R.’s parents
later sued, arguing that the school district had violated C.R.’s First Amendment rights. The district
court granted summary judgment in favor of the district, and the Ninth Circuit—after analyzing not only
C.R.’s free speech rights but also the rights of his victims to feel safe at school—affirmed:
Sexual harassment also implicates the
rights of students to be secure. Such harassment is harmful because it positions
the target as a sexual object rather than
a person, threatening the individual’s
sense of physical, as well as emotional
and psychological security . . . The facts
of this case illustrate the point. Both of
the targeted students were unable to return home from school without being
subjected to questions about sex acts and
whether they were dating—inappropriate and unsettling questions for students
just out of elementary school. Unsurprisingly, A.I. reported feeling scared
and uncomfortable after the encounter.
The school could therefore reasonably
expect that those feelings would cause
A.I. to feel less secure in school, affecting
her ability to perform as a student and
engage appropriately with her peers.
Moreover, the harassment had already
begun to escalate from the repetition of
curse words to sexual comments directed
at the victims. The school could reasonably expect the harassment to escalate

13
further if allowed to continue unchecked.
Without intervening administrative action, the younger students would be deprived of their right to be secure at
school.
Id. at 1152–53. As aptly noted by the Ninth Circuit,
but for the school district’s ability to discipline C.R.’s
off-campus speech under Tinker, C.R.’s harassment
likely would have escalated even further, and would
have continued to negatively impact his victims’ ability to succeed in the school environment.
Furthermore, school administrators like
NAPSA and PAPSA members not only have to deal
with student-on-student threats, but also student
threats to teachers or staff members—which was the
subject of Bell v. Itawamba County School Board, 799
F.3d 379 (5th Cir. 2015) (en banc). There, Taylor Bell,
a high-school senior and aspiring rap artist, recorded
a song that accused two coaches at his school of engaging in sexual misconduct with female classmates. The
song’s lyrics contained several threats, such as:
•

“betta watch your back / I’m a serve this nigga,
like I serve the junkies with some crack;”

•

“Run up on T–Bizzle / I’m going to hit you with
my rueger;”

•

“you fucking with the wrong one / going to get a
pistol down your mouth / Boww;” and

•

“middle fingers up if you want to cap that nigga
/ middle fingers up / he get no mercy nigga.”

Id. at 384. Bell was suspended and later sent to an
alternative school. Although Bell claimed that he did

14
not mean that he was going to shoot anyone, but that
he was only “foreshadowing that something might
happen,” id. at 386, the en banc Fifth Circuit saw the
song in a whole different light: “there is no genuine
dispute of material fact that Bell threatened, harassed, and intimidated the coaches by intentionally
directing his rap recording at the school community,
thereby subjecting his speech to Tinker.” Id. at 39697. The court noted that while students do retain
some right to freedom of speech, that right must be
tempered in light of a school’s duty to “teach [] students the boundaries of socially appropriate behavior.” Id. at 390 (quoting Bethel Sch. Dist. No. 403 v.
Fraser, 478 U.S. 675, 681 (1986)).
Although the Fifth Circuit began by noting that
all four of this Court’s student speech cases were limited to “speech inside the ‘schoolhouse gate’,” id. at
392,4 the court recognized that a school district’s duties and responsibilities have changed in the Internet
era:

While many courts say this when summarizing this
Court’s four student speech cases, it isn’t really true: the students holding the “BONG HiTS 4 JESUS” banner were standing
“across the street from the school to watch the event,” Morse v.
Frederick, 551 U.S. 393, 397 (2007)—so definitely not “inside the
schoolhouse gates.” And while other courts have temporized by
describing Morse as involving speech at a school-sanctioned and
school-supervised event, see, e.g. Longoria, 942 F.3d at 268 (“The
Court’s four school speech cases, including Morse, all pertain to
on-campus speech or speech conducted during a school-sponsored
activity.”), letting students walk outside to watch the Olympic
torch run by is hardly the kind of formal off-campus school activity, like an away football game or a debate tournament, where
you would expect strict supervision of students by school officials.
4

15
Over 45 years ago, when Tinker was decided,
the
Internet,
cellphones,
smartphones, and digital social media
did not exist. The advent of these technologies and their sweeping adoption by
students present new and evolving challenges for school administrators, confounding previously delineated boundaries of permissible regulations.
Id. at 392. Students can now communicate instantaneously and from virtually any location via the Internet, and such speech can be accessed anywhere, by anyone, at any time. Accordingly, the court agreed that
“off-campus threats, harassment, and intimidation directed at teachers create a tension between the student's free-speech rights and a school official’s duty to
maintain discipline and protect the school community.” Id.
The Fifth Circuit also agreed that this issue has
been greatly affected by the recent rise of incidents of
violence against school communities, noting that
“[s]chool administrators must be vigilant and take seriously any statements by students resembling
threats of violence, as well as harassment and intimidation posted online and made away from campus.”
Id. at 393 (internal citations omitted). All of these issues, concluded the court, “have drawn into question
the scope of school officials’ authority.” Id.

So, there is already some precedent, even at this Court, for expanding the school’s jurisdiction beyond its strict physical boundaries or outside of formal activities.

16
The Fifth Circuit readily rejected Bell's position
that Tinker did not apply to speech which originated
and was disseminated off-campus, without the use of
school resources:
Bell’s position is untenable; it fails to account for evolving technological developments, and conflicts not only with our
circuit’s precedent, but with that of every
other circuit to have decided this issue.
Id. at 393. After reviewing the decisions of other circuits, the court concluded that “based on our court’s
precedent and guided by that of our sister circuits,
Tinker applies to off-campus speech in certain situations.” Id. The court then held:
The pervasive and omnipresent nature of
the Internet has obfuscated the on-campus/off-campus distinction advocated by
Bell, making any effort to trace First
Amendment boundaries along the physical boundaries of the school campus a recipe for serious problems in our public
schools. Accordingly, in light of our court's
precedent, we hold Tinker governs our
analysis, as in this instance, when a student intentionally directs at the school
community speech reasonably understood by school officials to threaten, harass, and intimidate a teacher, even when
such speech originated, and was disseminated, off-campus without the use of
school resources.

17
Id. at 394 (internal citations omitted). The court had
no trouble determining that Bell met this standard—
he admitted that he produced and disseminated the
rap song knowing that students would listen to it, and
hoping that administrators would as well.
School administrators also have to deal with
threats against the school itself. Consider Wynar v.
Douglas County School District, 728 F.3d 1062 (9th
Cir. 2013), in which Landon Wynar sent a series of increasingly violent and threatening MySpace instant
messages from his home computer to his friends, bragging about his weapons, threatening to shoot specific
classmates, suggesting that he would “take out” others during a school shooting on April 20 (Hitler’s
birthday and the anniversary of the Columbine massacre), and invoking the specter of the Virginia Tech
massacre.5 One message read “ill probly only kill the
people i hate?who hate me / then a few random to get
the record.” Id. at 1065. Although Landon’s friends
joked with him at first, they became increasingly concerned and finally went to talk to a trusted coach, who
took them to the principal. Landon was eventually
taken into custody and admitted to writing the messages, but claimed they were a joke. Landon was suspended for 10 days and, after a hearing, expelled for
90 days.
The Ninth Circuit first considered whether
schools can discipline students for off-campus speech
that consisted of off-campus communications among
students involving a safety threat to the school
5 Wynar wrote, “that stupid kid from vetch, he didnt do
shit and got a record. i bet i could get 50+ people / and not one
bullet would be wasted.” Id. at 1066.

18
brought to the school’s attention by another student,
and not by the speaker. After reviewing caselaw from
other circuits, the Ninth Circuit perceived two distinct
tests: that of the Fourth Circuit, which required that
the speech have a sufficient “nexus” to the school, id.
at 1068 (citing Kowalski, 652 F.3d at 573), and that of
the Eighth Circuit, which required that it be “reasonably foreseeable that the speech will reach the school
community.” Id. (citing S.J.W., 696 F.3d at 777). The
Court concluded that Wynar’s speech both had a direct nexus to the school (Kowalski) and was reasonably foreseeable to have reached school grounds
(S.J.W.), and held that “when faced with an identifiable threat of school violence, schools may take disciplinary action in response to off-campus speech that
meets the requirements of Tinker.” Id. The Court then
held that “[i]t is an understatement that the specter
of a school shooting qualifies under either prong of
Tinker.” Id. at 1070.
School officials must have some leeway to address speech like that at issue in the cases discussed
above, because sometimes the parents cannot or will
not do it. Increasingly, and specifically with regards
to student speech on the Internet, the unique nature
of student interactions and social media speech sometimes means that there is no other government entity
that can address the speech, especially when (like in
Kowalski and S.J.W.), it is not overtly criminal in nature. Many NAPSA and PAPSA members can share
stories of telling parents that they should go to the police because the speech “sure seems threatening,” only
to have the police tell the parents they can do nothing
(or, worse yet, just refer the parents back to the school
district). When speech is made in the virtual world of

19
the Internet, who (other than schools) is there to protect the students the speech targets?
NAPSA and PAPSA note that when it comes to
harassment or bullying, the court below hedged its
bets a little:
Nor are we confronted here with off-campus student speech threatening violence
or harassing particular students or
teachers. A future case in the line of
Wisniewski, D.J.M., Kowalski, or S.J.W.,
involving speech that is reasonably understood as a threat of violence or harassment targeted at specific students or
teachers, would no doubt raise different
concerns and require consideration of
other lines of First Amendment law.
B.L., 964 F.3d at 190. But what does this mean? If
Tinker does not give school officials jurisdiction to address off-campus student speech, at least under certain circumstances, what “other line of First Amendment law” would? The Third Circuit mentions the
“true threat” doctrine, which is a very narrow exception to the First Amendment, and then falls back on
Morse. Id. at 190-91. But as Justice Thomas noted in
Morse, “I am afraid that our jurisprudence now says
that students have a right to speak in schools except
when they do not—a standard continuously developed
through litigation against local schools and their administrators.” Morse, 551 U.S. at 418 (Thomas, J.,
concurring). Saying “there may be other legal avenues to address online speech by students, but we are
not going to tell you what they are” is precisely what

20
causes school administrators (and courts like Longoria) to throw up their hands in frustration.
Although certain people (including a respected
First Amendment professor) have offered exaggerated
opinions about this subject, allowing school administrators to discipline students for off-campus, online
speech will not “empower schools to reach into any
student’s home and declare critical statements verboten, something that should deeply alarm all Americans.” See Adam Liptak, A Cheerleader’s Vulgar Message Prompts a First Amendment Showdown, N.Y.
Times (Dec. 28, 2020), available at https://www.nytimes.com/2020/12/28/us/supreme-court-schools-freespeech.html (quoting Professor Justin Driver). Contrary to oft-popular belief, school administrators do
use common sense when confronting these issues, and
serious discipline—such as expulsions—still require
that students be provided due process under Goss v.
Lopez, 419 U.S. 565, 574 (1975). Decisions like Kowalski, S.J.W., and Bell provide thoughtful guidance to
school administrators seeking to discipline students
for online speech, requiring (in various words) that
the speech have either a sufficient “nexus” to the
school community,6 or that it be “reasonably foreseeable that the speech will reach the school community.”7
And the Bell Court zeroed in on a student’s intent that
his or her speech reach the school community:
[A] speaker’s intent matters when determining whether the off-campus speech

6

Kowalski, 652 F.3d at 573.

7

S.J.W., 696 F.3d at 777.

21
being addressed is subject to Tinker. A
speaker’s intention that his speech reach
the school community, buttressed by his
actions in bringing about that consequence, supports applying Tinker’s
school-speech standard to that speech.
Bell, 799 F.3d at 395 (citing Porter v. Ascension Parish
Sch. Bd., 393 F.3d 608, 618, 620 (5th Cir. 2004)). The
Fifth Circuit also derived from various cases the following factors that school officials should take into
consideration when addressing online speech:
•

the nature and content of the speech, the objective and subjective seriousness of the speech,
and the severity of the possible consequences
should the speaker take action;8

•

the relationship of the speech to the school, the
intent of the speaker to disseminate, or keep
private, the speech, and the nature, and severity, of the school's response in disciplining the
student;9

•

whether the speaker expressly identified in educator or student by name or reference, and
past incidents arising out of similar speech;10

8

See Wynar, 728 F.3d at 1070-71.

9

See Doninger v. Niehoff, 527 F.3d 41, 50-52 (2nd Cir.

2008).
10

See Kowalski, 652 F.3d at 574.

22
•

the manner in which the speech reached the
school community;11

•

the intent of the school in disciplining the student;12

•

the occurrence of other in-school disturbances,
including administrative disturbances involving the speaker, such as “school officials having
to spend considerable time dealing with these
concerns and ensuring that appropriate safety
measures were in place.”13

Guidelines like these should mollify at least some of
the concerns about school administrators becoming a
“super-censorship board” for online student speech.
B.

In particular, schools need to be able to
address off-campus or online student
speech that targets other students.

The court below was concerned that the “reasonable foreseeability” test and the nexus test would
sweep too much student speech under the school’s authority, due to the expansive reach of technology:
In the past, it was merely a possibility,
and often a remote one, that the speech
of a student who expressed herself in the
See Boim v. Fulton Cnty. Sch. Dist., 494 F.3d 978, 985
Cir. 2007).
11

(11th

12 See J.S. ex rel. Snyder v. Blue Mountain Sch. Dist., 650
F.3d 915, 926, 929 (3rd Cir. 2011).

See D.J.M. ex rel. D.M. v. Hannibal Pub. Sch. Dist. No.
60, 647 F.3d 754, 766 (8th Cir. 2011).
13

23
public square would “reach” the school.
But today, when a student speaks in the
“modern public square” of the internet,
Packingham, 137 S. Ct. at 1737, it is
highly possible that her speech will be
viewed by fellow students and accessible
from school. And in some situations, it is
a virtual certainty: Depending on the
settings favored by that student’s
“friends” or “followers,” her message may
automatically pop up on the face of classmates’ phones in the form of notifications
from Instagram, Facebook, Twitter,
Snapchat, or any number of other social
platforms. Implicit in the reasonable
foreseeability test, therefore, is the assumption that the internet and social
media have expanded Tinker’s schoolhouse gate to encompass the public
square.
B.L., 964 F.3d at 187. This can be a legitimate concern: no school official really wants to become the Arbiter of All-Things Student Speech.
However, as noted above, the Fifth Circuit’s
“intent requirement”—i.e., requiring that the speaker
intended his or her speech to reach the school community—is one way to address such concerns. See Bell,
799 F.3d at 395. Another would be to focus on
whether a student’s online speech targets another student or school employee. Distinguishing between
speech that addresses a broader issue and speech that
targets a specific student underlays the thoughtful—
if unpublished—decision in Glowacki v. Howell Public
School District, 2013 WL 3148272 (E.D. Mich. 2013).

24
When students wore purple shirts to recognize AntiBullying Day, a student (Daniel) got into an argument
with his teacher about why students and teachers
could wear the purple shirts and display rainbow
flags, but a different student could not wear a Confederate flag belt buckle. The argument culminated in
Daniel telling his teacher (and the class), “I don't accept gays because I'm Catholic.” Id. at *3.
In the subsequent lawsuit, the teacher argued
that Daniel’s statement “I don't accept gays” was a
bullying statement that intruded upon the rights of at
least one homosexual student in the classroom. Noting that the law does “not establish a generalized hurt
feelings defense to a high school’s violation of the First
Amendment rights of its students,” and that there is
little authority interpreting what Tinker’s “invasion of
the rights of others” prong really entails, the court determined that Daniel did not violate that portion of
Tinker, at least where there was no evidence that
Daniel had specifically named or targeted a particular
individual in the class, or even knew that there was a
homosexual student in the class:
Given that the speech did not identify
particular students for attack but simply
expressed a general opinion-- albeit one
that some may have found offensive-- on
the topic of homosexuality, the court
finds that Daniel's expressive conduct
did not impinge upon the rights of others.
Id. at *8. In reaching its conclusion, the court relied
on a law review article by Professor Emily Gold Waldman, in which she suggested distinguishing between

25
speech that specifically targets others and speech that
primarily comments on political, social, or religious issues:
Morse points toward a useful distinction
between student speech that identifies
particular students for attack, and student speech that is primarily commenting on political, social, or religious issues. Building on that distinction, I argue that restrictions as to the first category should generally be constitutional,
just as restrictions on speech advocating
illegal drug use now are under Morse.
Restrictions as to the second category, by
contrast, should trigger Tinker, and be
presumptively unconstitutional unless
there is a real likelihood of substantial
disruptions to at least one other student’s educational performance. In further explicating and applying this “substantial disruption” standard, courts
should be guided by Morse’s recognition
that protection of students’ expression of
political, social, and religious opinions
and their psychological well-being are
both important interests.
Emily Gold Waldman, A Post-Morse Framework for
Students’ Potentially Hurtful Speech (Religious and
Otherwise), 37 J.L. & Educ. 463, 502-03 (2008). A test
that focuses on whether the speaker is targeting another person from the school community (i.e., “I don’t
like you because you are gay”) will help ensure that
harassment and bullying are addressed, while protecting a student’s ability to speak on the broader

26
topic (i.e., “I don’t approve of gay marriage because of
my religion”).
C.

Schools need some authority to address
student speech that, like here, targeted a
school activity or organization, and was
reasonably likely to cause disruption in
that activity or organization.

While focusing on speech that targets another
student or school employee (as recommended by Professor Waldman) is one way to address concerns about
regulatory overreaching, schools must also have some
ability to address off campus speech that targets a
school activity or organization. Again, it is beyond dispute that “[b]ad facts make bad law,” B.L., 964 F.3d
at 187, and it is easy in this case to criticize the school
for disciplining B.L. over what many people likely perceive to be “just a cheerleading dispute.” But if a male
football player publicly criticizes his coach on Facebook for taking him out of a game, and the coach
makes the player run laps at the next practice as punishment—something that probably happens at least
once or twice each year on virtually every football
team—would people be more likely to shrug and say,
“Yeah, that seems okay”? If a theater student goes
around town telling everyone, “This year’s play is terrible, don’t go see it,” crushing the spirits of the rest of
the cast, would there not be some justice in telling the
student, “Fine, but you don’t get to audition for the
next play”? And if a student making a Student Council nomination speech gets up and gives a speech that
is an “elaborate, graphic, and explicit sexual metaphor,” causing some students to hoot and yell, some
“by gestures [to] graphically simulate[] the sexual ac-

27
tivities pointedly alluded to in [the] speech,” and others to be “bewildered and embarrassed,” then would it
not make sense to remove that student from the list of
potential graduation speakers? See Fraser, 478 U.S.
at 678.
Admittedly, that last example actually happened on school grounds, but the point remains the
same: as NAPSA and PAPSA members can tell the
Court, speech like that engaged in by B.L. can and will
have a disruptive impact on that student’s group, even
if it is “just the cheerleading squad.” Group cohesiveness and dynamics matter very much (especially
when teammates must rely on one another for their
own physical safety), and the old adage “sticks and
stones can break my bones, but words will never hurt
me” is just flat-out wrong, as any victim of cyberbullying can tell you. But NAPSA and PAPSA agree that
such speech should at least have something to do with
the group, before it becomes subject to discipline,
which leads us to our last case: Longoria ex rel. M.L.
v. San Benito Independent Consolidated School District, 942 F.3d 258, 267 (5th Cir. 2019), another case
involving cheerleaders making negative comments on
social media.
However, the facts in Longoria were a little different: M.L., who had just been selected to be head
varsity cheerleader, was stripped of her position and
dismissed from the squad after the cheerleading
coaches discovered a series of tweets on M.L.’s personal Twitter account that contained profanity and
sexual innuendo. Most of the posts were tweets from
other persons that M.L. had “liked”, causing them to
be shared with her social media followers, including
the following:

28
•

“Imma show my mom all the snaps from girls
partying for spring break so she can appreciate
her lame ass daughter some more,”

•

“i [sic] don’t fuck with people who lowkey try to
compete with/ out do me,”

•

“I fucking love texas [sic] man….,

•

a tweet from a Twitter account entitled “Horny
Facts™,” which states, “bitch don’t touch my ...”

Id. at 262. Another tweet from M.L. responded “Yes”
to someone else asking her, “Did pope split you in
half?” Id.
While arguably inappropriate, none of these
posts were about the cheerleading program, and none
of them targeted a specific student, or were threatening or harassing in any way. So, like the Third Circuit
in this case, the Fifth Circuit in Longoria was very
concerned about the lack of clarity and guidance to
school officials regarding when they could discipline
students for off-campus speech. See id. at 269 (“We
note that the lack of clarity in the case law has given
rise to frequent calls from commentators asking
courts to more clearly delineate the boundary line between off-campus speech entitled to greater First
Amendment protection, and on-campus speech subject to greater regulation.”). Unlike this case, however, Longoria was primarily a qualified immunity
appeal, and given the “clearly established” element of
the qualified immunity test, the Fifth Circuit felt compelled to uphold the school employees’ immunity in
light what it felt was not “clearly established” law. Id.
at 265.

29
NAPSA and PAPSA bring this case to the
Court’s attention because even after the school administrators won, the Fifth Circuit went to extraordinary
lengths to suggest some guidelines derived from Fifth
Circuit cases (primarily Bell) for school administrators to follow in the future:
First, nothing in our precedent allows a
school to discipline non-threatening offcampus speech simply because an administrator considers it “offensive, harassing, or disruptive.” Second, it is “indisputable” that non-threatening student expression is entitled to First
Amendment protection, even though the
extent of that protection may be “diminished” if the speech is “composed by a
student on-campus, or purposefully
brought onto a school campus.” [Third],
as a general rule, speech that the
speaker does not intend to reach the
school community remains outside the
reach
of
school
officials. [Fourth,
b]ecause a school’s authority to discipline student speech derives from the
unique needs and goals of the school setting, a student must direct her speech towards the school community in order to
trigger school-based discipline.
Id. at 269 (internal citations omitted). Given that the
student tweets at issue in Longoria do not appear to
satisfy any of these “limitations” proposed by the Fifth
Circuit, one is left with the strong suspicion that the
student might have won the case on the merits of her

30
First Amendment claim, had qualified immunity not
been an issue.
In any event, Longoria does provide some guidance on when school administrators should not discipline students for off-campus, online speech: (1) when
the speech is non-threatening, (2) when the speech is
not directed at the school community or is not intended to reach the school community, and (3) when
the speech is not purposefully brought onto a school
campus. And, because M.L.’s posts were not about the
cheerleading program, did not target a specific student, and were not threatening or harassing, Longoria
should represent the tipping point at which school officials would no longer have jurisdiction over a student’s off-campus, online speech.
But here, while B.L.’s Snapchat posts admittedly did not target a specific student, nor were they
threatening or harassing, they were certainly about
and did target the school community (at least the
cheer program). It also strains credibility to argue
that B.L. did not intend her posts to reach the school
community; as the lower court’s opinion notes, she
knew that her posts would be seen by about 250 people, “many of whom were MAHS students and some of
whom were cheerleaders.” B.L., 964 F.3d at 175. And
those 250 persons would have known that the posts
were attacking the cheerleading program itself, especially after reading the second post: “Love how me and
[another student] get told we need a year of jv before
we make varsity but that’s [sic] doesn't matter to anyone else?” Id.
Accordingly, NAPSA and PAPSA believe that
Mahanoy High School officials properly followed

31
Tinker in determining that B.L.’s posts were reasonably likely to cause a disruption in the cheerleading
program, and her discipline should not have been
found to violate the First Amendment. At a minimum,
NAPSA and PAPSA believe that the Third Circuit
overreached in holding that Tinker categorically does
not apply to off-campus speech, and that the sweeping
nature of the Third Circuit’s ruling can and will negatively impact student safety and well-being going forward.
IV.
CONCLUSION
For the foregoing reasons, the judgment of the
court of appeals below should be reversed.
Respectfully submitted,
CHRISTOPHER B. GILBERT
Counsel of Record
STEPHANIE A. HAMM
THOMPSON & HORTON LLP
3200 Southwest Fwy., Suite 2000
Houston, Texas 77027
(713) 554-6744
cgilbert@thompsonhorton.com
Counsel for Amicus Curiae

DATED:

March 1, 2021

